                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL                 I
                                                  OFFICE OF INVESTIGATIONS

                                           CLOSEOLTT MEMORANDUM
                                                                                             II




          The National Science Foundation @SF) Office of Inspector General received information
          alleging that a company misrepresented itself as a small business by creating spin-off
          companies to circumvent eligibility requirements for NSF7sSmall Business Innovation Research
          (SBIR) program.                                                                     IS




         The company restructured and submitted documentation to the Small Business Administration
         (SBA) to become eligible to participate in the program. At the time of the restructuring, the
         company advised SBA that they would work with NSF to gain approval for a contract novation
         before accepting the NSF award.

         The cognizant NSF Grants Official advised that SBA determined that the original firni did not
         meet the definition of a small business for the purposes of the SBIR program and that NSF
         terminated the project. The Office of General Counsel (OGC) stated that the novation agreement
         was invalid because the company was not an eligible SBIR awardee at the time of award;
         therefore the agreement could not serve as a basis for the subsequent novation.

         NSF funds were not awarded to this firm due to SBA's determination of ineligibility. ,
         Accordingly, this case is closed.




           Footnote Redacted
           Footnote Redacted                                                                       I!
                                                                                                          11

                                                                                                    I
NSF OIG Form 2 (1 1/02)
